                                                                                                              )
                                                                                                              ,.
                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM
                                                                                                              !
Case Number: 111040018                                                                        Page 1 of 1



         We received an allegation that affiliated organizations 1 were invoived in potential fraudulent
         contracting practices and using government funds to support political campaigns. We found that
         institution one2 had received two NSF awards 3 and institution two4 had received three NSF
         awards 5 • We examined the financial documentation from both institutions and found no
         evidence that NSF funds had been improperly charged. However, we determined that on one
         award6, institution two had re-allocated funds from Participant Support Costs .without a request
         to the Program Officer. We wrote to the PI 7, directing her to adhere to applicable grant
         conditions8 and to promptly reply to requests of Program Officers.

         In light of the above, no further investigative effort is necessary in this matter. This I case is
         closed.




         2


         4


         6
         7




NSF OIG Fonn 2 (11102)

                                                                                      '   \
